U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Murray Rojas v. United States of America,
S.Ct. No. 20-1594

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13,
2021, and placed on the docket on May 18, 2021. The government’s response is due on June 17,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1594
ROJAS, MURRAY
USA

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ROBERT E. GOLDMAN
535 HAMILTON ST.
ALLENTOWN, PA 18101
THOMAS M. JOHNSON, JR.
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4550
TMJOHNSON@WILEY.LAW

